@OCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-574

SHEILA J. POOLE, Commissioner of the New York
State Office of Children & Family Services,
Petitioner,

Vv.
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR AMICI CURIAE STATES OF CONNECTICUT,
ALASKA, ARIZONA, COLORADO, DELAWARE, DISTRICT OF COLUMBIA, HAWAI‘I, IDAHO, ILLINOIS,
INDIANA, MAINE, MICHIGAN, MISSISSIPPI, NEVADA, OHIO, OKLAHOMA, OREGON, SOUTH CAROLINA,
TENNESSEE, TEXAS, UTAH, AND VIRGINIA IN SUPPORT OF PETITIONER in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
WILLIAM TONG
Attorney General
State of Connecticut
CLARE E. KINDALL
Solicitor General*
BENJAMIN ZIVYON
MICHAEL BESSO
CAROLYN SIGNORELLI
EVAN O'ROARK
SARA NADIM
Assistant Attorneys General
165 Capitol Avenue
Hartford, Connecticut 06106
(860) 808-5261
Clare.Kindall@ct.gov

Counsel for Amicus Curiae
*Counsel of Record State of Connecticut

Subscribed and sworn to before me this 2nd day of December, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
coon: EE: » 6 Ellie Q duh, Chl
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 39070

 
heila J. Poole, Commissioner of the New York Office of Children & Famil vices
LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
STEVEN C. WU
Deputy Solicitor General
CAROLINE A. OLSEN
Assistant Solicitor General
28 Liberty Street
New York, New York 10005
(212) 416-8016
barbara.underwood@ag.ny.gov
*Counsel of Record

New York State Citizens' Coalition for Children
Brian R. Matsui, Esq.

Morrison & Foerster LLP

Suite 6000

2000 Pennsylvania Avenue, NW

Washington, DC 20006

Telephone (202) 887-8784

bmatsui@mofo.com
